         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Performance of Work for a Non-
Department Entity at Lawrence
Livermore National Laboratory




INS-O-14-01                     January 2014
                                 Department of Energy
                                   Washington, DC 20585

                                        January 29, 2014


MEMORANDUM FOR THE MANAGER, LIVERMORE FIELD OFFICE


FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                            for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Performance of Work for a
                         Non-Department Entity at Lawrence Livermore National Laboratory"

BACKGROUND

Lawrence Livermore National Laboratory (LLNL) is a Department of Energy (Department)
Federally Funded Research and Development Center (FFRDC) that performs a variety of work
in support of the Department's mission, including high explosives and research and development.
As an FFRDC, LLNL may perform work for organizations other than the sponsoring agency
under the Economy Act, or other applicable legislation, when the work would not result in
competition with the private sector. The acceptance of such Work for Others is governed by
various contractual requirements and Departmental regulations. LLNL is managed and operated
by Lawrence Livermore National Security, LLC, for the National Nuclear Security
Administration (NNSA). The Livermore Field Office is responsible for administering the
contract between the Department and Lawrence Livermore National Security, LLC.

The Office of Inspector General received a complaint alleging that LLNL: (1) engaged in illegal
competition with the private sector by performing work for a non-Federal entity; and (2) used the
facilities and resources of LLNL inappropriately to perform this outside work. These allegations
involve explosives-related work performed at LLNL in November 2011 for a National
Geographic documentary about the Lusitania, a British passenger ship that sank in May 1915,
less than 20 minutes after being struck by a torpedo. We initiated this inspection to assess the
facts and circumstances surrounding the allegations.

RESULTS OF INSPECTION

We substantiated certain aspects of the allegation regarding LLNL's performance of non-
Department work. Specifically, we found that LLNL:

   •   Did not adequately consider the prohibitions against an FFRDC competing with the
       private sector when performing work for National Geographic's documentary, The Dark
       Secrets of the Lusitania; and
                                                 2



   •   Used Department facilities and resources inappropriately, to include $81,746 in Licensing
       and Royalty funds, to perform work for National Geographic. In addition, the work
       performed for the documentary did not appear to be consistent with LLNL's mission.

These conditions occurred, in part, because LLNL did not follow the established Work for
Others process. Instead, LLNL inappropriately pursued an alternate, less formal process for
approving and funding the documentary as a non-reimbursable project that used Licensing and
Royalty funds. By using such an approach, LLNL was able to avoid the requirement to have a
written determination certified in writing by the responsible Department or NNSA contracting
officer or authorized designee that performance of the work would not place the FFRDC in direct
competition with the domestic private sector.

In certain instances, the Department's Laboratories are permitted to perform work for outside
entities without complying with all established Work for Others requirements. However, the
Department does not permit the use of Licensing and Royalty funds as a means to avoid
compliance with Work for Others requirements. In addition, it appears to be unlikely that LLNL
would have been able to obtain a certification of non-competition because the services provided
could have been obtained from a number of private sector sources. Therefore, performing work
on the National Geographic documentary without adequately considering the prohibitions against
an FFRDC competing with the private sector gave the appearance that LLNL had inappropriately
used its privileged information or access to installations, equipment and real property in violation
of the provisions of Federal Acquisition Regulation 35.017, Federally Funded Research and
Development Centers.

In addition, the $81,746 in Licensing and Royalty funds expended on this project did not
conform with established restrictions that limited its use to legitimate and mission-related
scientific research, development, technology transfer and education at LLNL. Federal officials
responsible for oversight of contractor activities in this area told us that they knew of the
documentary and were concerned that it was an inappropriate use of LLNL's resources. Those
officials, however, took no action to correct LLNL's conduct or to require that the costs of the
effort be reimbursed to the Department.

During the course of our inspection, we also noted that LLNL had not established a detailed
disposition plan for Licensing and Royalty funds in a manner consistent with Federal regulations
and contract terms. Further, LLNL did not always adequately account for its actual use of these
funds. As such, Federal officials lacked detail needed for oversight of these funds. We noted
that in Fiscal Year 2011, LLNL had approximately $6.8 million in Licensing and Royalty funds
available to perform permitted activities.

Accordingly, we made a number of recommendations designed to improve transparency and
management of similar projects in the future.

OTHER MATTERS

We also received an unrelated allegation that LLNL interfered with the rights and abilities of
                                               3


Laboratory employees to participate in outside business activities. That allegation was not
substantiated. Additional details regarding our examination of the circumstances surrounding
that issue are discussed in Appendix 1.

MANAGEMENT COMMENTS

Management concurred with the report's recommendations and indicated that it was in the
process of implementing corrective actions. We found management's comments and planned
corrective actions to be generally responsive to our report findings and recommendations.

Management's formal comments are included in Appendix 4.

Attachment

cc:   Deputy Secretary
      Acting Administrator, National Nuclear Security Administration
      Chief of Staff
REPORT ON PERFORMANCE OF WORK FOR A NON-DEPARTMENT
ENTITY AT LAWRENCE LIVERMORE NATIONAL LABORATORY




TABLE OF
CONTENTS


Laboratory Support for Non-Department Work

Details of Finding                                    1

Recommendations                                       6

Management and Inspector Comments                     6


Appendices

1. Other Matters                                      7

2. Objective, Scope and Methodology                   8

3. Related Reports                                    9

4. Management Comments                               11
PERFORMANCE OF WORK FOR A NON-DEPARTMENT ENTITY AT
LAWRENCE LIVERMORE NATIONAL LABORATORY

LABORATORY SUPPORT FOR NON-DEPARTMENT WORK

The Office of Inspector General received a complaint alleging that Lawrence Livermore National
Laboratory (LLNL): (1) engaged in illegal competition with the private sector by performing
work for a non-Federal entity; and (2) used the facilities and resources of LLNL inappropriately
to perform this outside work. The allegations involved explosives-related work performed at
LLNL in November 2011 for a National Geographic documentary about the Lusitania, a British
passenger ship that sank in May 1915, less than 20 minutes after being struck by a torpedo. The
documentary attempted to explain why the Lusitania sank so quickly and to identify the source
of a second explosion that occurred on the ship moments after the torpedo hit.

LLNL is a Department of Energy (Department) Federally Funded Research and Development
Center (FFRDC). According to Federal Acquisition Regulation (FAR) 35.017, Federally
Funded Research and Development Centers, FFRDC's are used to meet certain special long-term
research or development needs that cannot be met as effectively by existing in-house or
contractor resources. FFRDCs are not to use privileged information or access to installations,
equipment and real property to compete with the private sector. All work performed must be
within the purpose, mission, and general scope of effort or special competency of the FFRDC.

LLNL also has access to non-appropriated funds generated through Licensing and Royalty
activities that it is permitted to spend for certain mission-related activities. Licensing and
Royalty funds are Federal funds, subject to the Department of Energy Acquisition Regulation,
the Department's management and operating (M&O) contract with Lawrence Livermore National
Security, LLC (LLNS), and LLNL's Policy 17.2, Licensing and Royalty Income Distribution.
These criteria require LLNL to use income from Licensing and Royalties for scientific research,
development, technology transfer and education at LLNL, consistent with the Laboratory's
research and development mission and objectives.

In support of the National Geographic documentary, LLNL conducted explosive testing and
synthesis at the Department's High Explosives Applications Facility to demonstrate the explosive
effects of various materials that may have contributed to the sinking of the Lusitania. The
activities were funded by LLNL using Licensing and Royalty funds. Our inspection revealed
that this work may have been contrary to the prohibitions against an FFRDC competing with the
private sector as well as restrictions on the use of Licensing and Royalty funds, and may not have
been consistent with LLNL's purpose, mission, general scope of effort or special competency.

                                 FFRDC and the Private Sector

We substantiated certain aspects of the allegation. Notably, LLNL did not adequately consider
the prohibitions against an FFRDC competing with the private sector before performing work
for National Geographic's documentary, The Dark Secrets of the Lusitania. Per FAR 35.017-1,
in order to establish the FFRDC's mission and facilitate a long-term relationship between the
Government and the FFRDC, a written agreement of sponsorship between the Government and
the FFRDC is prepared when the FFRDC is established. This agreement must include, among




______________________________________________________________________________
Page 1                                                         Details of Finding
______________________________________________________________________________
other things, the requirements of FAR 35.017-1(c) (5) for the delineation of: (1) whether or not
the FFRDC may accept work from other than the sponsoring agency; and (2) the procedures to
be followed if such work may be accepted.

In the case of LLNL, the Department is the sponsor and the sponsoring agreement is the M&O
contract between the Department and LLNS. The M&O contract permits LLNL to accept work
from a non-Department entity in accordance with the requirements and limitations of Department
Order 481.1C, Work for Others, Non-Department of Energy Funded Work. This Order states
that Work for Others is the performance of work for non-Department entities by Department/
National Nuclear Security Administration (NNSA) personnel and/or the respective contractor
personnel or the use of Department/NNSA facilities for work that is not directly funded by
Department/NNSA appropriations.

This Order stipulates that, prior to the performance of any proposed work for a non-Department
entity, several written determinations must be made and certified by the responsible Department
or NNSA contracting officer or authorized designee. These required certifications include a
determination that the proposed work will not place the facility in direct competition with the
domestic private sector.

However, LLNL did not follow the established Work for Others process. Rather, LLNL
inappropriately pursued an alternate, less formal process for approving and funding the
documentary as a non-reimbursable project that used Licensing and Royalty funds. This
alternate, less formal process did not include a requirement for a written determination by the
responsible Department or NNSA contracting officer or authorized designee that performance of
the work would not place the FFRDC in direct competition with the domestic private sector. A
LLNL official told us that consideration was given to using the Work for Others process, but
instead LLNL pursued the less formal process.

We noted that Department Order 481.C lists 11 exclusions in which the provisions of the Order
would not apply to certain activities or work performed. The source of funds was the basis for
the exclusion in 3 of the 11 instances. Specifically, the following were excluded from the Work
for Others process because of the source of funds:

   •   Activities funded under the Contributed Funds Act of 1921;

   •   Department/NNSA-funded work or services performed by one Department/NNSA
       site/facility management contractor for another; and

   •   Work directly funded by the Department of Homeland Security.

However, none of these included using Licensing and Royalty funds as the basis for an exclusion
to the Work for Others process.

LLNL officials told us that the Laboratory possessed unique capabilities that could not be
obtained anywhere else. The majority of the work related to the Lusitania documentary
performed by LLNL was conducted at the Department's High Explosives Applications Facility,
______________________________________________________________________________
Page 2                                                                         Details of Finding
______________________________________________________________________________
where LLNL personnel created and detonated explosives in a chamber while recording the
results. Also, LLNL scientists viewed the video recordings of the test explosions, analyzed the
outcomes, and provided National Geographic with an opinion as to why the Lusitania sank so
quickly. We were told by personnel involved with the project that the expert opinion LLNL
provided, coupled with the knowledge and experience of the scientists regarding the subject
matter, represented a unique capability not available in the private sector. We were also told that
the High Explosives Applications Facility is unique because the facility combines all the
capabilities needed for explosive research and development — fabrication, synthesis,
characterization and dynamic testing — under one roof.

In contrast, several LLNL officials and personnel who participated in the documentary told us
that no characterization was performed (i.e., no scientific data was captured) during the work
performed for the documentary. Therefore, the unique and total capabilities of the High
Explosives Applications Facility were not utilized. Further, LLNL officials knowledgeable of
the documentary told us that this work was atypical for LLNL due to the fact that scientific data
was not collected and a written report was not produced. At one point, one official who had
worked on the documentary proposed that the temperature and pressure readings of the test
explosions be scientifically measured, and then displayed as a graph along the bottom of the
video footage. However, we were told that the suggestion to capture and display the test data
was rejected because National Geographic did not want a graph and scientific data to detract
from the visual imagery of the explosions viewed by the audience.

During the course of our inspection, a LLNL official acknowledged that a private sector
company with a firing chamber and high speed imaging capability would have been able to
perform the work for the documentary. Other LLNL personnel involved with the documentary
told us that any special effects department in the film industry could have performed this work.

                              Department Facilities and Resources

We substantiated the allegation that LLNL used Department facilities and resources
inappropriately, to include $81,746 in Licensing and Royalty funds, to perform the work for the
National Geographic documentary. Licensing and Royalty funds are Federal funds, subject to
the Department of Energy Acquisition Regulation, the Department's M&O contract with LLNS
and LLNL's Policy 17.2, Licensing and Royalty Income Distribution. These criteria require
LLNL to use income from licensing and royalties for scientific research, development,
technology transfer, and education at LLNL, consistent with the research and development
mission and objectives of LLNL.

However, our inspection revealed that none of these criteria had been met and we determined
that LLNL's use of Licensing and Royalty funds for the documentary did not comply with
established requirements. While the documentary work was classified as "Education" on the
Fiscal Year (FY) 2012 end-of-year report to the Livermore Field Office, no written justification
or conclusive evidence was available to confirm that the work: (1) constituted scientific
research, development, technology transfer, or education at the Laboratory; (2) was consistent
with LLNL's mission and objectives; and (3) was an appropriate use of Licensing and Royalty
funds as required.
______________________________________________________________________________
Page 2                                                         Details of Finding
______________________________________________________________________________
During our inspection, LLNL officials and personnel involved with the documentary provided us
with various explanations as to why they believed the documentary was an appropriate use of
Licensing and Royalty funds. Specifically, one LLNL official told us that LLNL takes a broad
view of training and education, and that the documentary fell into the category of training. Other
officials told us that:

   •   The documentary served to educate the general public about the sinking of the Lusitania;

   •   The documentary would broadcast NNSA's and the Department's abilities;

   •   LLNS simply wanted to get its name out there to show that LLNL can do various things;

   •   LLNL gained credibility from the visibility of appearing in the documentary; and

   •   LLNL intends to be the best in the world at simulations.

As previously stated, the Department of Energy Acquisition Regulation and LLNS's M&O
contract stipulate that education at LLNL is one of several allowable uses of Licensing and
Royalty funds, provided the use of funds is also consistent with LLNL's mission. However, we
concluded that any use of Licensing and Royalty funds to educate the general public was
inconsistent with FAR 31.205-44, Training and Education Costs, which stipulates that education
costs for other than bona fide employees are unallowable. We further noted that FAR 31.205-1,
Public Relations and Advertising Costs, stipulates that public relations and advertising costs,
including the costs of promotional material, motion pictures, videotapes, and other media
designed to call favorable attention to the contractor and its activities, are unallowable.

In addition, we learned that Livermore Field Office officials had previously expressed concerns
with LLNL's use of Licensing and Royalty funds for the documentary, and officials expressed
those same concerns during our review. A Livermore Field Office official told us that the work
done for the documentary did not constitute scientific research, development, technology transfer
or education at LLNL, as required by LLNS's M&O contract when using Licensing and Royalty
funds. The official also told us that the documentary should have been funded with LLNS's
corporate funds rather than with Licensing and Royalty funds because the work performed was
not consistent with LLNL's mission. Despite acknowledging these concerns, we found no
evidence that the Livermore Field Office took any action to resolve its concerns regarding
LLNL's use of Licensing and Royalty funds to perform the documentary. A Livermore Field
Office official, however, told us that the controls provided by the M&O contract over LLNL's
use of Licensing and Royalty funds needed improvement.

Contributing Factors

These conditions occurred, in part, because LLNL did not follow the established Work for
Others process. Instead, LLNL inappropriately pursued an alternate, less formal process for
approving and funding the documentary as a non-reimbursable project that used Licensing and
Royalty funds. Consequently, the Work for Others requirement to have a written certification
from the responsible Department or NNSA contracting officer or authorized designee that
______________________________________________________________________________
Page 4                                                                       Details of Finding
______________________________________________________________________________
performance of the work would not place the FFRDC in direct competition with the domestic
private sector was never implemented. Therefore, LLNL could not provide conclusive evidence
to demonstrate that the work performed for the documentary was not available from the private
sector. It should be noted that the use of Licensing and Royalty funds was not identified as 1 of
the 11 exclusions to the Work for Others process. In addition, it is unlikely that LLNL would
have been able to obtain a certification of non-competition because the services provided could
have been obtained from a number of private sector sources. Therefore, we concluded that
performing work on the National Geographic documentary without adequately considering the
prohibitions against an FFRDC competing with the private sector gave the appearance that
LLNL may have inappropriately used its privileged information or access to installations,
equipment and real property in violation of the provisions of FAR 35.017.

In addition, the stated understanding of the appropriate use of Licensing and Royalty funds by
LLNL officials was not consistent with the requirements for the use of these funds. Moreover,
LLNL had not established a detailed disposition plan to spend these funds in a manner consistent
with Federal regulations and the terms of the contract, and LLNL did not adequately account for
its actual use of the Licensing and Royalty funds.

Specifically, the FAR, the Department of Energy Acquisition Regulation and the Department's
M&O contract with LLNS all required that LLNL submit an annual plan to the Livermore Field
Office detailing how it would spend Licensing and Royalty funds. LLNL was also required to
provide the Livermore Field Office an annual end-of-year accounting of how these funds were
actually used. LLNL submitted a FY 2012 disposition plan and a subsequent end-of-year
accounting to the Livermore Field Office. However, our review of LLNL's FY 2012 end-of-year
report found that it did not provide sufficient information to permit detailed review and
oversight. Specifically, the report contained only a project title, a brief description, and a total
amount spent for the documentary. We determined that neither the annual plan nor the end-of-
year accounting provided the level of detail necessary for the Livermore Field Office to assess
whether LLNL had used Licensing and Royalty funds appropriately. As such, Federal officials
lacked detail needed for oversight of these funds. We noted that in FY 2011, LLNL had
approximately $6.8 million in Licensing and Royalty funds available to perform permitted
activities.

Impact and Path Forward

Given the issues identified in this report with the use of Licensing and Royalty revenue, we
concluded that $81,746 in Licensing and Royalty revenue was used inappropriately to pay for the
National Geographic documentary and therefore, was not available for legitimate scientific
research, development, technology transfer and education at LLNL. As such, we question that
entire amount. We noted that the funds for the documentary were expended out of FY 2010
earnings, which were available for LLNL's use in April 2011. Because of the absence of details
in the disposition plan and end-of-year accounting, there was no assurance that approximately
$6.8 million in Licensing and Royalty funds available to LLNL in FY 2011 were expended for
intended purposes in a manner consistent with Federal regulations and the terms of the contract.



______________________________________________________________________________
Page 5                                                         Details of Finding
______________________________________________________________________________


RECOMMENDATIONS

We recommend that the Manager, Livermore Field Office:

    1. Ensure that, prior to the performance of any proposed work for a non-Department entity,
       a determination is made and certified in writing by the contracting officer that the
       proposed work will not place the FFRDC in direct competition with the domestic private
       sector, and is consistent with LLNL's mission;

    2. Ensure that LLNL formulates and submits on an annual basis a detailed disposition plan
       and actual accounting for the Contractor's use of Licensing and Royalty funds for
       authorized mission-related purposes; and

    3. Direct the Contracting Officer to make a determination regarding the allowability of the
       $81,746 in Licensing and Royalty funds spent on the National Geographic documentary,
       and to recover any costs determined to be unallowable.

MANAGEMENT COMMENTS

Management concurred with the report's recommendations and indicated that it was in the
process of implementing corrective actions.

It should be noted that management did not respond to the suggestion in Appendix 1. However,
the M&O contractor concurred with this suggestion in its unofficial comments dated May 29,
2013. Specifically, LLNS stated:

       Regarding the OIG concern to address matters more promptly, we're revising the LLNS
       Employee Conflicts of Interest Compliance Plan and will add language to promptly
       resolve employee conflicts of interest issues.

Management comments are included in Appendix 4.

INSPECTOR COMMENTS

We found management's comments and planned corrective actions to be generally responsive to
our report findings and recommendations. In some instances, we modified the report where
appropriate to clarify references to Work for Others requirements.




______________________________________________________________________________
Page 6                                                       Recommendations
                                           Management and Inspector Comments
Appendix 1

                     OTHER MATTERS — CONFLICT OF INTEREST

We were unable to substantiate the allegation that Lawrence Livermore National Laboratory's
(LLNL) management interfered with the rights and abilities of its employees to participate in
outside business activities. However, we noted that LLNL's process for resolving employee
conflicts of interest was not always effective. Federal regulations, the Department of Energy's
management and operating contract with Lawrence Livermore National Security, LLC, and
LLNL's policies required the Laboratory to promptly resolve employee conflicts of interest.

Specifically, we noted that LLNL neither approved nor denied an employee's requests to
participate in an outside business for two consecutive years, 2011 and 2012. LLNL officials told
us that this delay was due to a potential conflict of interest related to the employee's outside
business, and that the employee and management had been engaged in a prolonged effort to
devise a conflict mitigation strategy acceptable to all parties. Despite this mitigation process,
this potential conflict of interest still had not been resolved at the conclusion of our inspection.
This issue occurred, in part, because LLNL's Employee Conflicts of Interest Plan did not contain
language consistent with Federal regulations and Department of Energy policies requiring that
corrective measures be promptly instituted and carried out, and that potential conflicts of interest
be aggressively resolved.

LLNL's failure to promptly resolve such potential employee conflicts of interest could result in
the performance of unsanctioned or inappropriate outside work by employees' outside
businesses. Unresolved employee conflicts of interest may become organizational conflicts of
interest, which expose the Department of Energy to potential embarrassment and legal liability.

SUGGESTED ACTION

We suggest that the Manager, Livermore Field Office, determine whether the prompt resolution
of employee conflicts of interest is a systemic issue at LLNL and initiate corrective actions as
necessary.




______________________________________________________________________________
Page 7                                                            Other Matters
Appendix 2

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to assess the facts and circumstances surrounding the
allegation that Lawrence Livermore National Laboratory (LLNL): (1) engaged in illegal
competition with private industry; (2) inappropriately used its facilities and resources to perform
outside work; and (3) interfered with the rights and abilities of Laboratory employees to
participate in outside business activities.

SCOPE

We conducted this inspection from June 2012 to December 2013, at the LLNL in Livermore,
California. The inspection was conducted under Office of Inspector General Project Number
S12IS016.

METHODOLOGY

To accomplish the inspection objective, we:

   •   Interviewed the complainant, officials from the Livermore Field Office and other LLNL
       officials and personnel;

   •   Reviewed approval and funding documentation for the National Geographic
       documentary;

   •   Reviewed applicable sections of the Federal Acquisition Regulation and the Department
       of Energy Acquisition Regulation;

   •   Reviewed relevant Department of Energy orders, manuals, and policy flashes; and

   •   Reviewed applicable site policies, procedures, guidance, plans, and manuals.

We conducted this inspection in accordance with the Council of the Inspectors General on
Integrity and Efficiency, Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our objective. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our inspection objective. Accordingly, the inspection included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the objective. Because
our review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our inspection.

Finally, we relied on computer-processed data to some extent, to satisfy our objective. We
confirmed the validity of such data, as appropriate, by reviewing source documents and
performing physical observations.

An exit conference was waived by management on August 26, 2013.

______________________________________________________________________________
Page 8                                       Objective, Scope and Methodology
Appendix 3

                                    RELATED REPORTS

Office of Inspector General Reports

   •   Audit Report on Management Controls over the Technology Transfer and
       Commercialization Program at the Idaho National Laboratory (OAS-M-05-07, June
       2005). Certain financial management activities associated with the Idaho National
       Laboratory's technology transfer and commercialization program were not managed by
       Bechtel BWXT Idaho, LLC (Bechtel) consistent with its contract terms. Specifically,
       Bechtel did not properly recognize royalties due from licensing activities and did not
       monitor and ensure expenditures were within established administrative limits. This
       occurred because Bechtel did not take action to correct previously reported weaknesses
       and the Idaho Operations Office did not provide adequate oversight to make certain
       contract provisions were complied with and reported weaknesses corrected. Without
       adequate controls in place, the Department of Energy (Department) cannot ensure that
       certain financial aspects of its technology transfer and commercialization program are
       adequately managed. The report made recommendations to the Manager of the Idaho
       Operations Office to improve oversight of Bechtel's financial controls over its technology
       transfer and commercialization program.

   •   Audit Report on Management Controls over Patent and Royalty Income at Ames
       Laboratory (OAS-M-05-05, May 2005). The audit disclosed that Ames Laboratory had
       not adequately controlled and accounted for patent and royalty revenues, nor expended
       such funds to further research, technology transfer and education. These issues occurred
       in part because the Ames Site Office did not provide adequate oversight to ensure that
       Ames established a plan for the use of patent revenues in a manner consistent with
       contract terms. As a result, approximately $3.5 million generated by technology transfer
       is at greater risk of loss and of not being productively used.

   •   Audit Report on Management of Patent and Licensing Activities at Department-Owned
       Contractor-Operated Laboratories (DOE/IG-0479, August 2000). The audit reviewed
       patent and licensing activities at the Department's laboratories and found that patent
       infringement claims against the Department's laboratories had increased in recent years.
       The audit contained recommendations designed to resolve issues of competition with the
       private sector and patent infringement.

Professional Services Council Report

       Report on Federally Funded Research and Development Centers: A Strategic
       Reassessment for Budget-Constrained Times (Professional Services Council, June 2012).
       Federally Funded Research and Development Centers (FFRDCs) have an important role
       to play in defense and intelligence. They maintain laboratories and specialized test and
       evaluation facilities beyond those available to the government and its for-profit
       contractors. However, many of the functions for which FFRDCs were envisioned, and
       which they alone could provide at the outset, can now appropriately be provided by
       numerous for-profit contractors as effectively and at a far lower cost. Although recent

______________________________________________________________________________
Page 9                                                        Related Reports
Appendix 3 (continued)

      legislative and regulatory changes have opened a clear path to competition,
      performance-based contracting and cost savings in the acquisition of such services,
      FFRDCs have instead become increasingly aggressive in work scope expansion. This
      FFRDC mission creep is at the expense of the government, taxpayers and industry.




______________________________________________________________________________
Page 10                                                       Related Reports
Appendix 4


                         MANAGEMENT COMMENTS




______________________________________________________________________________
Page 11                                                Management Comments
Appendix 4 (continued)




______________________________________________________________________________
Page 12                                                Management Comments
                                                                        IG Report No. INS-O-14-01


                               CUSTOMER RESPONSE FORM
I   The Office of Inspector General has a continuing interest in improving the usefulness of its
    products. We wish to make our reports as responsive as possible to our customers' requirements,
    and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
    you may suggest improvements to enhance the effectiveness of future reports. Please include
    answers to the following questions if applicable to you:

       1. What additional background information about the selection, scheduling, scope, or
          procedures of the inspection would have been helpful to the reader in understanding this
          report?

       2. What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

       3. What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

       4. What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

       5. Please include your name and telephone number so that we may contact you should we
          have any questions about your comments.


    Name                           Date

    Telephone                      Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations


    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
